DOCKET NO.
UNITED STATES SUPREME COURT
2020 OCTOBER TERM

YULIAN MANUEL VILLAVICENCIO
PETITIONER
v.
UNITED STATES OF AMERICA,
RESPONDENT
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Pursuant to 18 U.S.C. ยง3006A(d)(1) and Rule 46 of this Court, petitioner
Yulian Manuel Villavicencio asks leave to file the attached Petition for Writ of
Certiorari to the United States Court of Appeals for the Fourth Circuit without
prepayment of fees or costs and to proceed in forma pauperis. Petitioner was
represented by counsel appointed pursuant to 18 U.S.C. ยง3006(a) in the direct
appeal.
This the 22nd day of October, 2020.
/s/ Aaron E. Michel
Aaron E. Michel, Attorney for Petitioner
1000 N. Maple St., Marysville, OH 43040
704-451-8351
mail@aaronmichel.com

1

